Report No. DODIG-2012-088                    May 16, 2012




    Guam Medical Staffing Plan Needs Improvement to
     Ensure Eligible Beneficiaries Will Have Adequate
                  Access to Health Care
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AE                            Aeromedical Evacuation
GMH                           Guam Memorial Hospital
MHS                           Military Health System
MTF                           Medical Treatment Facility
NICU                          Neonatal Intensive Care Unit
NMW                           Navy Medicine West
USNH                          U.S. Naval Hospital
TPMRC                         Theater Patient Movement Requirements Center
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE 

                                      4800 MARK CENTER DRIVE 

                                   ALEXANDRIA, VIRGINIA 22350-1500 





                                                                                       May 16, 2012

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Guam Medical Staffing Plan Needs Improvement to Ensure Eligible Beneficiaries
         Will Have Adequate Access to Health Care (Report No. DODIG-20 12-088)

We are providing this report for review and comment. Although the Navy Medicine West
methodology for determining medical staffing requirements in Guam was reasonable, the
resulting plan for providing specialty care did not adequately identify and assess the risks
associated with not expanding specialty care in Guam. This is the second in a series of reports
regarding the adequacy of medical plans related to the realignment of Service members and their
families to Guam. We considered management comments on a draft 'ofthis report when
preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly, The Chief of
Staff, Navy Medicine West comments were partially responsive to the recommendation.
Therefore, we request additional comments on the recommendation by July 16, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audyo rktown@dodig.mil. Copies of the management comments must contain the actual
signature of the authorizing official. We are unable to accept the /Signed/ symbol in place of the
actual signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff, Please direct questions to me at
(703) 604-8866.



                                             dJu~
                                              Alice F. Carey
                                              Assistant Inspector General
                                              Readiness, Operations, and Support
Report No. DODIG-2012-088 (Project No. D2011-D000LF-0093.000)                          May 16, 2012


                Results in Brief: Guam Medical Staffing
                Plan Needs Improvement to Ensure
                Eligible Beneficiaries Will Have Adequate
                Access to Health Care
                                                                 requirements resulting from the
What We Did                                                      Guam realignment without
This is the second in a series of reports                        coordinating with the Air Force.
regarding the adequacy of medical plans
related to the realignment of Service                     Consequently, the Navy Medicine West plan
members and their families to Guam. Our                   did not sufficiently mitigate the risks
objective was to determine whether the                    associated with not providing additional
methodology and plan used to determine the                specialty care in such a remote location and
number and type of medical staff needed for               ensure the beneficiaries in Guam will have
eligible beneficiaries in Guam ensure that                adequate access to health care.
beneficiaries have adequate access to care,
given the expected population increases                   What We Recommend
resulting from the realignment to Guam.                   We recommend that the Chief, Navy
                                                          Medicine West:
What We Found
The Navy Medicine West methodology for                       •	 apply the staffing methodology for
determining medical staffing requirements                       specialties that U.S. Naval Hospital
was reasonable. However, the resulting plan                     Guam does not provide;
did not adequately identify and assess the                   •	 coordinate with the U.S. Air Force to
risks associated with not expanding                             determine if the aeromedical
specialty care in Guam although the                             evacuation system can handle future
beneficiary population was projected to                         demands; and
increase from 14,195 in FY 2005 to 37,467                    •	 identify and assess the risks of not
by FY 2020. * For example, Navy Medicine                        providing certain specialty care, and
West personnel did not adequately plan for                      develop plans for mitigating
nine specialties that are available to                          unacceptable risks.
beneficiaries in Okinawa, Japan, such as
neurology, neonatal intensive care unit, and              Management Comments
gastroenterology. This occurred because
Navy Medicine West personnel:                             and Our Response
                                                          The Chief of Staff, Navy Medicine West,
    •	 did not apply their methodology for                disagreed with our finding and
       determining medical staffing                       recommendation, stating that Navy
       requirements to the specialties that               Medicine West considered all specialty
       the U.S. Naval Hospital Guam did                   requirements necessary to accommodate the
       not provide; and                                   beneficiary increases in Guam and their
    •	 assumed the aeromedical evacuation                 plans do not result in unacceptable risk. We
       system that moved 374 patients                     believe that this report fairly represents the
       (including 64 urgent and priority                  extent of planning at the time of the audit.
       patients) out of Guam in FY 2010                   The Navy Medicine West comments were
       could handle the increased                         partially responsive. We request that the
                                                          Navy reconsider its position on the
                                                          recommendation and provide responses to
*                                                         the final report. See the Recommendation
 Population projections are notional and may change       Table on the back of this page.
over time.



                                                      i
Report No. DODIG-2012-088 (Project No. D2011-D000LF-0093.000)        May 16, 2012

Recommendation Table

         Management                     Recommendation      No Additional Comment
                                       Requires Comment           Required
Chief, Navy Medicine West        Yes


Please provide comments by July 16, 2012.




                                            ii
Table of Contents

Introduction                                                                1


      Objective                                                             1

      Background                                                            1

      Review of Internal Controls                                           3


Finding. A Better Plan Needed for Providing Specialty Care to 

Guam Beneficiaries                                                          4


      The Navy Medicine West Staffing Requirements Methodology

        Was Reasonable                                                      4

      The Navy Medicine West Plan for Providing Health Care Needs to 

        Identify and Assess Risks                                           5

      Navy Medicine West Personnel Should Apply Their Methodology to 

        Calculate Staffing Requirements for Specialties Not Provided at 

        USNH Guam                                                           6

      Navy Medicine West Personnel Should Coordinate With the Air Force

        to Assess AE Resources                                               7

      Conclusion                                                             9

      Management Comments on the Finding and Our Response                    9

      Recommendation, Management Comments, and Our Response                 12 


Appendix

      Scope and Methodology                                                 15 

             Use of Computer-Processed Data                                 15 

             Prior Coverage                                                 15 


Management Comments

      Navy Medicine West                                                    17 

Introduction
Objective
This is the second in a series of reports regarding the adequacy of medical plans related to
the realignment of Service members and their families to Guam. Our objective was to
evaluate the methodology used to determine the number and type of medical staff needed
and the plan for providing specialty care to eligible beneficiaries in Guam. Specifically,
given the expected population increases resulting from the realignment in Guam, we
determined whether the methodology and plan ensure that eligible beneficiaries have
adequate access to care. See the appendix for a discussion of the scope and methodology
related to the objective.

Background
In 2005 and 2006, the Governments of Japan and the United States held a series of
discussions that resulted in an agreement to relocate elements of the III Marine
Expeditionary Force from Okinawa, Japan, to Guam. The total active duty (including the
Coast Guard) and family member populations in Guam were projected to increase from
14,195 in FY 2005 to 37,467 by FY 2020.1 DoD is studying whether to significantly
reduce the number of Marines it plans to relocate to Guam. These changes to the
population projections could affect medical planning. The FY 2012 National Defense
Authorization Act prohibits funding for Guam realignment projects until the
Commandant of the Marine Corps submits updated force projections and the Secretary of
Defense submits a master plan to Congress.

Guam Realignment Responsibilities
The Office of the Secretary of Defense established the Joint Guam Program Office to
lead the coordinated planning efforts among DoD Components and other stakeholders to
consolidate, optimize, and integrate the existing DoD infrastructure capabilities on Guam.
Joint Guam Program Office leadership coordinated with Navy Bureau of Medicine and
Surgery officials to ensure Guam medical plans were developed and strategically aligned
with the latest developments and resource timelines for the Guam realignment. The Navy
Bureau of Medicine and Surgery is the headquarters command for Navy medicine. Navy
Medicine West (NMW) is responsible for defining Guam health care requirements based
on population and workload; identifying the resources available to meet the established
requirements; and planning and executing the resource, facility, and personnel
requirements. NMW coordinated with the medical treatment facilities (MTF), specialty
leaders, Navy Bureau of Medicine and Surgery, Naval Facilities Engineering Command,




1
 Baseline population is from the Guam Integrated Military Development Plan, July 11, 2006; Army, Navy,
and Marine Corps population increases from the Final Environmental Impact Statement, Guam and
Commonwealth of the Northern Marianas (CNMI) Military Relocation, July 2010. Air Force and Coast
Guard increases from the 36th Air Wing, March 2010.


                                                  1

Joint Guam Program Office, U.S. Air Force counterparts, and other involved parties to
determine the appropriate timelines and location for meeting health care demands.

Guam Health Care
U.S. Naval Hospital (USNH) Guam is comprised of the main hospital and two branch
clinics, medical and dental, on Naval Base Guam. The Guam relocation initiative placed
increased requirements on USNH Guam because the active duty and family member
beneficiary population was projected to more than double. In addition to Military Health
System (MHS) beneficiaries, USNH Guam has provided health care to the Guam
population for more than 100 years, according to its Web site. According to the Guam
Integrated Military Development Plan, the anticipated population growth required new
medical space to meet the demand for outpatient and secondary care medical services.
Planning initiatives for USNH Guam included construction of a replacement hospital,
along with two new branch clinics at Apra Harbor and Finegayan. 2 During the audit, the
replacement hospital was under construction, and the two clinics were in the design
phase.

Other than USNH Guam, Guam Memorial Hospital (GMH) is the only inpatient facility
on Guam. However, GMH generally does not serve MHS-eligible patients other than
occasional emergency room visits and for use of their Magnetic Resonance Imaging
machine. A clinic on Anderson Air Force Base, Guam also provides primary care
services; however, it refers all inpatient and specialty services to USNH Guam.

Since 1988, Guam has been classified as a Medically Underserved Area, 3 which
demonstrates the island’s difficulty to meet health care needs. According to the
                           July 2010 Final Environmental Impact Statement, the island
   Since 1988, Guam
                           experienced shortages of health care providers and lacked
   has been classified
                           specific health care specialists. The report further explained
      as a Medically
                           that it is often difficult to recruit specialists from the U.S.
  Underserved Area…
                           mainland because of its remote location and lower pay scale.
Referrals for specialized services not available in Guam required MHS beneficiaries to
fly to Okinawa, Hawaii, or elsewhere.

Guam Aeromedical Evacuation
USNH Guam relies on the aeromedical evacuation (AE) system to transport patients who
require medical services not available in Guam. The U.S. Air Force AE system
transports stabilized patients using fixed wing aircraft with specially trained air crews.
The Theater Patient Movement Requirements Center (TPMRC) Pacific at Hickam Air
Force Base, Hawaii, approves patient movement requests for the Pacific region.




2
  The USNH Guam replacement project was not funded through the realignment initiative.
3
  A Medically Underserved Area is an area designated by the U.S. Department of Health and Human
Services Health Resources and Services Administration as having too few primary care providers, high
infant mortality, high poverty, or high elderly population.


                                                   2

TPMRC Pacific personnel classify patients eligible for transportation through the AE
system as either routine, priority, or urgent based on their condition, movement
precedence, and special requirements. Routine patients require movement but can wait
for a regularly scheduled AE mission or use the commercial ticket program. Priority
patients require movement within 24 hours and urgent patients require movement as soon
as possible. Both urgent and priority patients are transported on Special Assignment
Airlift Missions (‘alert birds’). No designated AE assets were located in Guam.
Therefore, the aircraft and crew responsible for the AE alert missions were deployed
from the 18th AE squadron at Kadena Air Force Base, Okinawa.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that an internal
control weakness existed in the NMW planning for providing specialty care in Guam.
Specifically, NMW personnel did not apply their methodology for determining medical
staffing requirements to the specialties that USNH Guam did not provide. In addition,
NMW personnel assumed the AE system could handle the increased requirements
resulting from the Guam realignment without fully coordinating with the Air Force. We
will provide a copy of the report to the senior official responsible for internal controls in
NMW.




                                              3

Finding. A Better Plan Needed for Providing
Specialty Care to Guam Beneficiaries
The NMW methodology for determining medical staffing requirements was reasonable.
However, the resulting plan did not adequately identify and assess the risks associated
with not expanding specialty care in Guam although the beneficiary population was
projected to increase from 14,195 in FY 2005 to 37,467 by FY 2020. 4 For example,
NMW personnel did not adequately plan for nine specialties that are available to
beneficiaries in Okinawa, such as neurology, neonatal intensive care unit (NICU), and
gastroenterology. This occurred because NMW personnel:

    •	 did not apply their methodology for determining medical staffing requirements to
       the specialties that USNH Guam did not provide; and
    •	 assumed the AE system that moved 374 patients (including 64 urgent and priority
       patients) out of Guam in FY 2010 could handle the increased requirements
       resulting from the Guam realignment without fully coordinating with the Air
       Force.

Consequently, the NMW plan did not sufficiently mitigate the risks associated with not
providing additional specialty care in such a remote location and ensure the beneficiaries
in Guam will have adequate access to health care.

The Navy Medicine West Staffing Requirements
Methodology Was Reasonable
Although the Navy did not have an approved model to determine medical staffing
requirements, the NMW methodology for determining staffing requirements was
reasonable. NMW personnel developed an approach for determining staffing
requirements and coordinated its approach with the Navy Manpower Analysis Team
(NMAT). The NMAT was supportive of the NMW methodology as a sound and valid
method of establishing staffing requirements. The methodology factored in population
size and beneficiary category (for example, active duty or family member), the amount of
health care the population was expected to consume, and expected provider productivity.
After calculating the minimum staffing needed to meet the health care demand, NMW
personnel sought expert opinion from its specialty leaders 5 to determine whether
additional staffing was required based on local command or geographical area factors.




4
  Population projections are notional and may change over time. Changes to the population projections

could affect medical planning.

5
  Navy Medicine specialty leaders are experts in their fields and are responsible for medical personnel

assets.



                                                     4

NMW personnel used the following formula to determine physician staffing
requirements:


      Future Population × Utilization Rate6 × Average Relative Value Unit per visit7

                 Specialty Relative Value Unit Production Benchmark8


To determine nurse staffing requirements, NMW personnel used California
nurse-to-patient ratios for most specialties because they believed the standards were the
most conservative and increased the nursing requirements. NMW personnel used more
specific nursing requirement standards for specialties, such as the operating room,
emergency room, and intensive care unit. For example, NMW personnel used the
Association of periOperative Registered Nurses staffing standards for the operating room
because they were designed for that specialty.

During our site visits, clinicians from USNH Guam and USNH Okinawa discussed
staffing requirements for multiple specialties, including pediatrics, psychiatry,
psychology, and emergency room care. NMW calculations met or exceeded the staffing
requirements recommended by the clinicians for
                                                        However, NMW personnel did not
all but one specialty that NMW planned to provide
                                                          determine staffing requirements
at USNH Guam. In addition, NMW personnel
                                                         for specialties that USNH Guam
calculated 14 family practice physicians, which
                                                                  did not provide.
was consistent with the American Academy of
Family Physicians’ physician-to-patient ratio. Overall, despite not having an approved
staffing standard, the NMW methodology for determining staffing requirements was
reasonable for those specialties that USNH Guam provided at the time the plan was
developed. However, NMW personnel did not determine staffing requirements for
specialties that USNH Guam did not provide.

The Navy Medicine West Plan for Providing Health Care
Needs to Identify and Assess Risks
The NMW plan for providing health care did not adequately identify and assess the risks
associated with not providing additional specialties at USNH Guam. NMW personnel
planned for USNH Guam to provide 19 specialties, such as mental health, orthopedic
surgery, and pediatrics. Although the active duty and family member population was
expected to more than double, NMW personnel did not plan to provide additional


6
  NMW personnel used utilization rates (the rate that specialties are consumed by various beneficiary
categories) developed in the 2007 Healthcare Requirements Analysis. The Healthcare Requirements
Analysis rates were calculated using 2005 data; however, NMW personnel re-calculated the rates with 2010
data for the specialties with the largest workload and determined the rates were still valid.
7
  NMW personnel weighted the medical encounters based on complexity and length of stay (relative value
units).
8
  NMW planners used the NMW 2009 relative value unit benchmarks, or benchmarks that estimate
provider productivity, because they were more conservative than its 2010 benchmarks; therefore, the
calculations required more providers.


                                                   5

specialties beyond what was available at USNH Guam when the plan was developed.
Although the following specialties were available at the naval hospital or on the local
economy in Okinawa, NMW personnel did not plan to provide these specialties in Guam:

    • Neurology                     • NICU	                          • Pediatric Psychology
    • Neurosurgery                  • Podiatry	                      • Pediatric Psychiatry
    • Cardiology                    • Gastroenterology               • Cardio Thoracic Surgery

NMW estimated that USNH Guam will deliver approximately 38 percent more babies
than USNH Okinawa after the realignment. However, NMW personnel stated that the
NICU would remain at USNH Okinawa because it was staffed with Air Force resources
and NMW was not able to relocate those personnel. NMW officials intended for USNH
Okinawa to remain a referral center for the Pacific region 9 and, thus, a more robust
hospital than USNH Guam. However, with the active duty and family member
populations expected to more than double in Guam, NMW officials should identify and
assess the risk of not providing certain specialties in Guam.

Unrelated to the Guam realignment, USNH Guam officials planned to continue using
circuit rider programs, where physicians periodically travel to Guam, to provide health
care in specialties not provided at USNH Guam. USNH Guam offered limited specialty
care through the circuit rider programs in the following specialties:

    •	 Pediatric Cardiology and Pediatric Development—2 times a year;
    •	 Maternal Fetal Medicine—quarterly; and
    •	 Gastroenterology—every 6 weeks and provided and funded by the Department of
       Veterans Affairs under an existing sharing agreement.

In addition, USNH Guam officials planned to use contract physicians to provide pediatric
psychological and psychiatric care through circuit rider programs. Further, USNH Guam
considered using circuit rider programs for neurology and podiatry. Circuit rider
programs provide limited access to specialty care because providers are only available
periodically and are typically not available for providing urgent or emergent care.

Navy Medicine West Personnel Should Apply Their
Methodology to Calculate Staffing Requirements for
Specialties Not Provided at USNH Guam
NMW personnel did not apply their methodology to calculate staffing requirements for
the specialties that USNH Guam did not provide when the plan was developed. NMW
personnel believed the workload for these specialties was too small for providers to
maintain their skills. Calculating staffing requirements for specialties not provided,
regardless of whether NMW used the existing methodology or an alternative one, would


9
 In FY 2010, USNH Guam sent less than 8 percent of patients requiring AE to USNH Okinawa for care.
The majority—69 percent—were sent to Tripler Army Medical Center, Hawaii.


                                                 6

help NMW to identify and assess the risk of not providing these specialties. When
performing their calculations, NMW personnel should capture the total workload for
Guam and Okinawa beneficiaries by including purchased care and direct care provided
outside of Guam and Okinawa MTFs. In FY 2010, 13 percent of outpatient encounters
for Guam beneficiaries occurred outside of USNH Guam through the purchased care
system. 10 If after performing staffing calculations NMW personnel determine that not
providing certain specialties would pose an unacceptable risk then they need to develop
plans to mitigate the risks.

Navy Medicine West Personnel Should Coordinate With
the Air Force to Assess AE Resources
NMW planned to rely on the AE system, which consists of a finite number of aircraft and
personnel, for specialty care services unavailable in Guam. However, as of April 2011,
NMW personnel did not coordinate with the Air Force to determine if the AE system
could handle the increased demand that will likely result from the realignment initiative.
NMW planners agreed that contacting the Air Force should be the next step in their
planning process for Guam specialty care. In May 2011, after we notified NMW of our
concerns about AE resources, NMW officials began coordinating with TPMRC Pacific
and U.S. Transportation Command personnel.

Guam Accounted for About Half of the FY 2010 Pacific Region
AE Alert Missions and Increases Are Likely
Guam accounted for about half of the Pacific region AE alert missions from July 2010
through January 2011 and Guam missions will likely increase because of the realignment.
                              According to TPMRC officials, in FY 2010, 374 patients
    Guam accounted for        were moved out of Guam using the AE system, of which
  about half of the Pacific   64 were categorized as urgent or priority. In Okinawa,
   AE alert missions from     eligible beneficiaries have access to health care at the
     July 2010 through        naval hospital and on the local economy. These
       January 2011…          beneficiaries also use the AE system to receive health care
                              outside of Okinawa. Of the Services, the Marine Corps
used AE in Okinawa the most. From FY 2008 through FY 2010, the Marine Corps
accounted for 822 of the 1,952 aeromedical evacuations out of Okinawa. Moving the
active duty Marine Corps and family members from Okinawa to Guam will likely result
in an increased demand for AE services because of the lack of available specialty care on
the local economy and at USNH Guam.




10
     Purchased care data provided by TRICARE Area Office – Pacific.


                                                    7

TPMRC Pacific Officials Were Concerned About the Likely
Increase in AE Requirements
In April 2011, TPMRC Pacific officials voiced concerns that NMW personnel did not
coordinate with the Air Force to
determine whether the AE system could        Specifically, TPMRC Pacific officials
handle the increased requirements that      expressed concern about the location of
will likely result from the Guam           AE assets, the distance to Guam, and the
realignment. Specifically, TPMRC           increased requirements that could result
Pacific officials expressed concern              from the Guam realignment.
about the location of AE assets, the
distance to Guam, and the increased requirements that could result from the Guam
realignment. The figure below shows AE flight times in the Pacific region.

                        Figure. Aeromedical Evacuation Flight Times




               Source: National Oceanic and Atmospheric Administration; TPMRC Pacific

In addition to the flight times shown in the figure, time is required to receive and validate
patient requests, alert aircraft crew, locate aircraft and medical equipment, establish the
mission itinerary, and transport patients from the hospital to the aircraft. TPMRC Pacific
officials stated that it takes at least 7 hours to get an aircraft and personnel from Kadena
Air Force Base in Okinawa to Guam and up to 24 hours 11 from the time the AE need is
identified to medically evacuate a patient to Hawaii. According to TPMRC Pacific
officials, when they alert aircraft for an AE mission, it reduces mission capabilities for
the rest of the theater. When an AE crew at Kadena Air Force Base goes out on a
mission, it could be 3 to 5 days before the crew returns to Kadena. Additionally,
TPMRC Pacific officials were concerned that if an aircraft breaks down in Guam while
transporting a seriously ill patient from another location, Guam may not have the
capabilities to care for the patient because it lacks the required specialty care. Fully
coordinating with the Air Force to determine whether the AE system can handle the



11
  DoD Instruction 6000.11, “Patient Movement,” September 9, 1998, establishes 24 hours as the maximum
movement window for priority patients. Urgent patients require movement as soon as possible to save life,
limb, or eyesight.


                                                   8

increased requirements will help NMW identify and assess the risks associated with not
providing certain specialties at USNH Guam.

Conclusion
The NMW methodology for determining medical staffing requirements in Guam was
reasonable for the specialties USNH Guam provides. However, the resulting plan did not
adequately identify and assess the risks associated with potential shortages of care in
specialties not provided at USNH Guam. NMW personnel should calculate staffing
requirements for all specialties that may be needed in Guam. By calculating
requirements for all specialties and coordinating with the Air Force to evaluate the
AE system resources, NMW personnel can then identify the risks of not providing some
specialties and determine if those risks are acceptable. For those risks determined
unacceptable, NMW personnel should develop plans to mitigate the risks. Those plans
could include increasing the specialties provided, the use of circuit riders, the use of the
AE system, the use of sharing agreements, or other means NMW personnel determine to
be appropriate. Without complete risk mitigation plans, NMW officials cannot ensure
adequate access to health care for beneficiaries in Guam. We recognize that DoD is
reexamining the Guam relocation initiative and may significantly change the number of
Marines relocating to Guam; however, regardless of the changes NMW still needs to plan
for providing health care in Guam considering the increased beneficiary population.

Management Comments on the Finding and Our
Response
The Chief of Staff, NMW, commenting on behalf of the Surgeon General of the Navy,
disagreed with the finding. The Principle Deputy Assistant Secretary of the
Navy (Manpower and Reserve Affairs) endorsed the comments on behalf of the
Department of the Navy. The Chief of Staff stated that he felt that the audit team
misunderstood how NMW planned for nine specialties identified in the report as
available in Okinawa but not at USNH Guam. He also said that failure to include a
service does not indicate a failure to consider or plan for that service and evaluations of
each specialty led to deliberate decisions on whether to include each specialty. The Chief
of Staff agreed that NMW personnel did not apply the staffing methodology to specialties
that USNH Guam does not provide and did not include these specialties in its medical
planning documentation. However, he stated that NMW used alternative data sources
and they believe these data sources better estimate medical needs for these specialties.
For each of the nine specialties cited on page 6 of this report, the Chief of Staff described
the rationale for the NMW staffing decision and the risk mitigation strategy, which, in
most cases, included continued reliance on the AE system, the circuit rider program, or
both. For example, the Chief of Staff said that the cardiology and cardio thoracic surgery
workload at USNH Guam would not support the need for these services and they would
continue to rely on the AE system to mitigate risk. He also said that we incorrectly
identified cardiology and cardiothoracic surgery as specialties available at
USNH Okinawa. The Chief of Staff cited a 2008 assessment of cardiology needs,
prepared by the Chief of Cardiology at U.S. Naval Medical Center San Diego, which he




                                             9

said concluded that the AE system will be more than adequate to meet future needs based
on 17,000 additional beneficiaries.

The Chief of Staff specifically disagreed with and requested we remove seven passages
from the report. The first three passages concerned coordination with the Air Force
regarding the impact on the AE system. He disagreed with our conclusions that
NMW personnel assumed the AE system would be adequate without coordinating with
the Air Force and that TPMRC Pacific officials were concerned about this lack of
coordination. He explained that NMW personnel had coordinated with the Air Force and
U.S. Transportation Command on three occasions in May and June 2011. He said that
Air Force personnel representing the AE system concluded that the addition of
17,000 additional beneficiaries will not diminish their ability to continue to meet mission
requirements. The Chief of Staff also disagreed with three passages regarding risk
assessment and mitigation. He asked us to remove report passages that state that NMW
did not adequately identify, assess, and mitigate risks associated with potential shortages
of specialty care in Guam. The Chief of Staff stated that he believes that the audit report
assumes, invalidly, that NMW did not plan for or consider certain specialties or risk
mitigation. He stated that the continuing risk mitigation strategy will be to rely on the
AE system and to continue use of the circuit rider program. The Chief of Staff provided
an analysis of five “at risk” specialties and the projected impact on urgent and
priority AE given the addition of 17,000 beneficiaries. He concluded that the projected
increase was not significant and supported the NMW conclusion that not providing
certain specialties would not result in unacceptable risk. In fact, NMW concluded that no
unacceptable risks would develop as a result of the expanded population. Finally, the
Chief of Staff requested we remove a report passage that states circuit rider programs
provide limited access to care. He cited USNH Guam’s 2010 inspection by the
Medical Inspector General and accreditation by The Joint Commission 12 as evidence that
the periodic nature of circuit rider programs is not a source of risk or concern. These two
reviews look for quality of care concerns and areas where gaps in care may exist.

Our Response
The audit team based the conclusions in this report on information obtained during the
course of the audit. In May 2011, NMW provided us with the USNH Guam medical
staffing plan that was the subject of this report. During the audit (6 months of meetings,
follow-up communication and data requests, and staffing a discussion draft of this
report), NMW officials did not discuss or provide support for an alternative staffing
methodology for USNH Guam. NMW officials provided a staffing plan in May 2011
that did not include projected demand or staffing requirements for specialties not
provided at USNH Guam. When we asked a NMW official for documents that show
workload calculations for these specialties he told us that they did not exist. This same
official told us that these specialties were not considered for staffing at USNH Guam.
During our audit, NMW did not provide the workload projections included in the
Chief of Staff’s comments during our review. However, unlike the staffing plan provided

12
  The Joint Commission is an independent, not-for-profit organization that accredits and certifies
U.S. health care programs.


                                                    10

to us in May 2011, the Chief of Staff’s comments did not include a description of the
methodology or data used in the calculations. In their USNH Guam staffing plan,
NMW planners based workload projections on the movement of 17,000 beneficiaries
from Okinawa to Guam, plus other projected gains. We acknowledged in our report that
the projected population increases may change; however, we believe the conclusions in
this report apply regardless of the future population. We agree that skill erosion is a
legitimate concern and the beneficiary population in Guam may not support providing
certain specialties at USNH Guam.

We disagree with the Chief of Staff’s characterization of the 2008 cardiology assessment;
this was not an assessment of the AE system. The assessment discussed aspects of
cardiology care performed well at USNH Guam, highlighted gaps in the standard of care,
and discussed increased risk associated with the potential population increases. The
assessment offered several options to mitigate the gaps, but provided no plan of action
for selecting or implementing any of the options. The assessment concluded that the
U.S. Naval Medical Center San Diego Cardiology Department could manage the
anticipated volume increase from Guam. However, the assessment did not evaluate the
current or future capabilities of the U.S. Air Force AE system. As we noted on page 6 of
this report, nine specialties, including cardiology and cardio thoracic surgery, were
available to beneficiaries in Okinawa but not in Guam. Although not available at
USNH Okinawa, cardiac care was available locally in Okinawa.

We did not remove any of the report passages that the Chief of Staff asked us to remove
from our report. The passages related to the AE system are factually accurate and
relevant to our finding; despite years of planning, NMW officials began coordination
with the Air Force only after our May 2011 visit. Further, as of February 2012,
TPMRC Pacific officials remained concerned about the impact of Guam population
increases on the AE system. See our response to management comments in part 2 of the
recommendation on page 13 of this report for more detail. Regarding the three passages
on risk assessment and mitigation, we reached these conclusions based on the
information provided by NMW personnel. NMW plans for staffing USNH Guam did not
include risk assessments or mitigation plans, and NMW officials provided no evidence
that they assessed the risk of not providing certain specialties. Additionally, we believe
that the Air Force is better suited to determine the impact of population increases on the
AE system. Finally, we did not remove the passage that highlights the limited access to
care resulting from circuit rider programs. As discussed on page 6 of this report, circuit
rider programs provide periodic access to care. Further, we reviewed the 2010 Joint
Commission report on USNH Guam and found that it did not assess risks associated with
circuit rider programs or the ability of USNH Guam to meet the demands of future
population growth. The Chief of Staff’s comments did not include a copy of the
Medical Inspector General inspection results.




                                           11

Recommendation, Management Comments, and Our
Response
We recommend that the Chief, Navy Medicine West:

   1. Apply the staffing methodology to determine requirements for specialties that
U.S. Naval Hospital Guam does not provide. When determining these
requirements, Navy Medicine West should include workload resulting from
purchased care and direct care received elsewhere.

Management Comments
The Chief of Staff, NMW, disagreed with the recommendation, stating that although he
agreed that NMW personnel did not apply the staffing methodology for specialties
that USNH Guam does not provide, they instead used an alternative methodology that
they believe better estimates medical needs. The Chief of Staff stated that NMW
determined which medical specialties to provide in Guam based on historical and
projected workload. He said that NMW personnel had conducted informational,
decisional, and planning discussions over several years to address the health care needs of
beneficiaries in the Pacific region, and they considered several factors, including
resources, population, demand, and case mix. The Chief of Staff further stated that
NMW officials remain steadfast that the approach met the spirit and intent of the
recommendation.

Our Response
The NMW comments were partially responsive. NMW personnel did not inform us of an
alternative staffing approach until their response to a draft of this report. An alternative
methodology may meet the intent of the recommendation; however, unlike the staffing
plan provided to us in May 2011, the Chief of Staff’s comments did not include a
description of the alternative methodology or data used in the calculations. In May 2011,
a NMW official told us that NMW did not calculate requirements for specialties not
provided at USNH Guam. As stated on page 6 of this report, they believed that the
workload for these specialties would be too small for providers to maintain their skills.
We asked for documentation to support this belief and were told that there was none. We
concluded that NMW officials did not adequately plan for specialties not provided at
USNH Guam based on the information provided by NMW during our audit.

NMW personnel did not provide documentation to show that they used an alternative
methodology or how they applied that methodology. Without additional documentation
and details of the alternative methodology used, we were unable to determine whether
NMW fully estimated the projected workload, including direct care and purchased care
received at other locations. Also, we could not verify whether the alternative
methodology used to determine staffing for specialties not provided at USNH Guam was
reasonable or met the intent of the recommendation. We request that the Chief of Staff
provide additional details, including documentation to support the NMW analyses and
calculations for the specialties USNH Guam will not provide.



                                            12

   2. Coordinate with the U.S. Air Force to determine if the aeromedical
evacuation system can handle the expected increased demand for services resulting
from the Guam realignment initiative.

Management Comments
The Chief of Staff, NMW, disagreed with the recommendation, stating that NMW
personnel have communicated verbally and in writing with representatives of the
AE system both in the Pacific and at U.S. Transportation Command, ensuring the
AE system will continue to handle future demands for Guam beneficiaries. Further,
Air Force representatives “at all levels” have concluded that the addition of up to
17,000 additional beneficiaries will not limit their ability to continue to meet AE mission
requirements. The Chief of Staff included an analysis of five “at risk” specialties and the
projected impact on urgent and priority aeromedical evacuations, concluding that the
projected 79 percent increase was not significant.

Our Response
The NMW comments were not responsive. TPMRC Pacific officials disagreed with the
NMW Chief of Staff’s statements. Upon receipt of the NMW comments, we contacted
officials at TPMRC Pacific who stated that they have never taken the stance that the
AE system would be adequate to support future requirements. As of February 2012,
TPMRC Pacific officials remained concerned about the impact of Guam population
increases on the AE system. They stated that they need NMW to provide additional
details on projected AE requirements so that the Air Force can properly fund the
AE increases. We acknowledged on page 7 of this report that NMW officials began
coordination with the Air Force in response to this audit. However, NMW officials did
not provide any support to show that Air Force staff at any level concluded that the
addition of up to 17,000 beneficiaries will not diminish their ability to continue to meet
mission requirements. The Chief of Staff stated that reliance on AE is part of the
NMW risk mitigation strategy for Guam beneficiaries; as such, NMW should include
formal coordination with the Air Force in its planning process. We believe that the
Air Force is best suited to determine whether a projected 79 percent increase in urgent
and priority AE is significant. We request that the Chief of Staff reconsider his position
on the recommendation and provide comments on the final report.

   3. Based on staffing calculations and coordination with the U.S. Air Force,
identify and assess the risks of not providing certain specialty care at U.S. Naval
Hospital Guam, and develop plans for mitigating unacceptable risks.

Management Comments
The Chief of Staff, NMW, disagreed with the recommendation, stating that NMW
analyzed and assessed the expanding Guam population and concluded that no
unacceptable risks will develop because of the increased beneficiary population. The
Chief of Staff added that NMW anticipates the population increase to be predominately
healthy, young Marines and their family members. Further, he stated that the health care
delivery system, in addition to the staffing increases projected by their comprehensive



                                            13

analysis, will continue to meet their needs. The Chief of Staff stated that the continuing
mitigation strategy is to rely on the AE system that is currently in place and continue
using the circuit rider program.

Our Response
The NMW comments were not responsive. In his response, the Chief of Staff did not
demonstrate how NMW concluded that there will be no unacceptable risk and provided
no evidence that their stated risk mitigation strategy is supported by a risk assessment.
The USNH Guam staffing plan that NMW provided did not include risk assessments or
mitigation plans, and NMW officials provided no evidence that they assessed the risk of
not providing certain specialties. We believe that NMW cannot fully assess and identify
risks of not providing certain specialty care or develop sufficient risk mitigation plans
until it projects future requirements for all specialties and includes coordination with the
Air Force in its planning process. We request that the Chief of Staff reconsider his
position on the recommendation and provide comments on the final report.




                                             14

Appendix. Scope and Methodology
We conducted this performance audit from March 2011 through January 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit objective was to evaluate the methodology used to determine the number and
type of medical staff needed and the plan for providing specialty care to eligible
beneficiaries. Specifically, given the expected population increases resulting from the
realignment in Guam, we determined whether the methodology and plan ensure that
eligible beneficiaries have adequate access to care. This is the second in a series of
reports regarding the adequacy of medical plans related to the realignment of Service
members and their families to Guam.

We interviewed the NMW officials responsible for planning, executing, and staffing
health care requirements in Guam and officials from the Joint Guam Program Office,
TRICARE Management Activity, and the Navy Bureau of Medicine and Surgery. To
gather information regarding the methodology and plan for providing specialty care, we
met with representatives from TPMRC Pacific, the Department of Veterans Affairs,
U.S. Marine Corps Forces Pacific, U.S. Pacific Fleet, U.S. Pacific Command, and the
TRICARE Area Office Pacific. Additionally, we met with USNH Guam and USNH
Okinawa providers, nurses, risk managers, and other officials to obtain their perspective
and concerns regarding specialty care in Guam.

To determine whether the methodology was reasonable, we reviewed calculations used
by NMW to project physician and nursing staffing levels. We compared
clinician-recommended staffing levels to NMW staffing requirements. We researched
available physician and nursing staffing standards and compared them to NMW
recommended staffing levels. Additionally, we reviewed the Navy’s plans regarding the
use of the AE system for specialty care that will not be offered at USNH Guam or
available on the island of Guam.

Use of Computer-Processed Data
We did not rely on computer-processed data in developing our findings, conclusions, or
recommendation.

Prior Coverage
During the last 5 years, the Government Accountability Office has issued one report
discussing medical treatment facility medical personnel requirements. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov.




                                            15

GAO
GAO Report No. 10-696, “Enhanced Collaboration and Process Improvements Needed
for Determining Military Treatment Facility Medical Personnel Requirements,”
July 2010




                                       16

Navy Medicine West Comments






                                   DEPARTMENT OF THE NAVY
                                      NAVAl INSPECTOR GENERAL
                                         12501 9TH STREET SE
                                 WASHINGTON NAVf YARD DC 20374-5006
                                                                      IN REPLY REFER TO:
                                                                      7540
                                                                      Ser Nl / 0223
                                                                      27 Feb 12




      From :    Nava l Inspector General
      TO :      Department o f Defense, Inspector General

      Subj,     GUAM MEDICAL STAFFING PLAN NEEDS I MPROVEMENTS TO ENSURE
                ELIGIBLE BENEFI CI ARI ES WI LL HAVE ADEQUATE ACCESS TO
                HEALTH CARE (PROJECT NO . D2011 - DOOOLF - 0093)

      Ene l:    (1) ASN(M&RA) 1tr dtd 23 Feb 1 2

      1.     En closure (1) is




                                   ~S r~
                                       By direction




                                                               17
                        DEPARTMENT OF THE NAVY
                        O FFICE OF THE A SSIST AN T S E C RE T AR Y 

                          'MA N POWER AN D R ESERV E AF F A I R S) 

                                  1000 HA VY PE N TAGO N 

                             WA S H I N G TON , D . C . 2 0 SS0· I OOO 




                                                                               FEB 2 3   10~

MEMORANDUM FOR NAVAL INSPECfOR GENERAL

SUBJECf: 	Guam Medical Stafftng Plan Needs Improvement to Ensure Eligible
         Beneftciaries Will Have Adequate Access to Health Care
         (Project No. D2011-DOOOLF-0093.00)

      Thank you for the opportunity to review and comment on the Department of
Defense Draft Repon on Guam Medical Staffing Plan. The Department of the Navy has
reviewed !he draft repon and supports the Surgeon General of !he Navy and Navy
Medicine West's recommeodations to Don-concur with the fmdiogs and
recommendations. Navy Medicine West's comments are attached.




                                Q.~
                       Click to add  JPEG~rs...filec ~:.
                                 Raben T. cali
                                                 Principle Deputy Assistant Secretary of !he
                                                 Navy (Manpower and Reserve Affairs)

Atta<:hments:
As stated




                                                               18
                                   DEPARTMENT DF THE NAVY 

                                    .,7t IANNAVYDEClO.
                                                  IIIEIMtINE WEST

                                        NORMAN SCOTT LIIC)Ab    sun:.5 

                                                       CA tI13MS21

                                                                             5041
                                                                             Ser OOS/OOSS
                                                                             S Feb 12

 MEMORANDUM POR CHIEF BUREAU OF MEDICINE AND SURGBRY

 Subj:             ooD1G DRAFT REPORT ON GUAM:               NAVY MEDICINE WEST RESPONSE

 Ref :             (a) Email from BtlMED Secretariat of 4 February 2012
                   (b ) 	 oonrG Draft Report on Guam dtd 17 Janu~ 2012,
                       Project No . D2011-DOOOLF-0093.000

 Enel:             (1) Amplifying Background Information

 1.   I n accordance with reference (a), the fol l owing response and
 encl osure (1) are provided following a review of reference (b):

             a.     Qenaral:   Navy Medicine West OOES NOT concur with the 

 r ecommendations del ineated in the DODIG Draft Report. 


             b. 	 Re8pOD!! to 3 DOD      :IQ   Rae

                     (1) _ l y
                                Click to add JPEG file
                               the naUiag ...tbodology for ..,..,ialtie.   that
 u   ~   s   ~    lJaTal BolIPital (USRR) Guaa doe . not ProvicSe (HOH-coacmt):
While we agree that we did not apply the s t affing methodology
for specialties that USNH Guam does not provide. we instead
reviewed numerous sources of data , workload est imates for each
additional specialty, and the urgent and non-urgent aeromedical
evacuati on occurrences related to these specialties for TRlCARE
benefici aries. We believe these data sources better estimate
medi cal needs. Foll owing this comprehensive review , we remain
steadfast that our appr oach met the spirit and intent of the
OODI G's r ecommendation, and our conclusion to NOT add these
additional special ties in the planning forecast remains
unchanged.

        ( 2 ) Coor41.Date with the US Air :l"orce to daterai.De it the
aercaedical evacuation syatea can baDdle f1,l.ture ~. (JtIOII­
~ ):        We have previously stated to the . OODIG both ver ball y
  and in writing that we have coordinated with representatives of
  the aeromedical evacuation system both on the ground and at
  Tr ansporta tion Command ensuring their system will continue to
  handle potential f ut ure demands for TRlCARE beneficiaries .
  Bottom line : Air Force scaff at all levels concluded that the
. addition of TRICARE beneficiaries, up to the amoWlt of 17,000




                                                                     19
Subj :   OOOIG DRAFT REPORT ON " GUAM:   NAVY   MEDICINE   WEST RESPONSE

additional "beneficiaries, will not "diminish their ability to 

continue "to meet mission requirements. 


w. disagr.. ~ifically with the Lollowing pas.ages o~ the 

c!raEt report "aDd reque~t that the following ca-ents be rr•.•..oved4.
                                                                ,••


     • 	page 3, 110m&! personnel assumed the AE system could handle
        the increased requirements resulting from the Guam.
         realignment wi~out coordinating with the Air Force.-;
     • 	Page 7, "NNW" Personnel did not coordinate with the Air
         Force to determine if the AE system "could handle the
         increased demand that will "likely result from the
         realignment initiative.-;
     • 	 and page 8, "TPMRC Pacific Officials voiced concerns that
         NMW personnel did not coordinate with the Air Force to
         determine whether the AE system could handle the increased
         requirements that will" likely result f~om the Guam
         realignment . • "               "        "

 We have communicated both verbally and in writing with u. S. Air
                      Click to add JPEG file
 Porce and TRANSCOM officials. " On 31 May 2011, we conversed with
                   OSAF, TPMRC Pacific, who stated that meeting 

 the AE mission in light of 
                             not be a
"problem. In June, 2011 we spoke to
 coordinates AB on the ground in Guam.
 the increasing population wOUld not be
 compromise the AE system's ability to
 accomplishment. In June, 2011 we engaged
 USN, Deputy Surgeon, TRANSCOM, to discuss
 implications of the Potential increased beneficiary population
 on Guam .            concurred wi th all the above.

  NaVy Medicine West staff has engaged with representatives of the
AB   system from the "boots on" the ground· level · in Guam to the
"·strategic· level at PACOM and TRANSCOM, with assurance" that the
  increased beneficiary population in Guam, up to 17,000
 "additional beneficiaries, will not limit the ability of the AE
  system to meet its mission .
         (3) :Identify aDd &IIS.S. the risks of not prcnri4J.».g
certain specialty care at lIJava1 Boapita1 Gu.aa aDd develop • plan
for a1tigatiDg' unacceptable ri.ks "(liIOl!l-CORCtJR) • Based upon our
analysis and assessment of the "expanding population of Guam,
whi"ch has included continuous dialogue with the Marine Corps, we


                                    2




                                                20
 Subj:   oonIG DRAFT REPORT, ON GUAM:   NAVY MBDICINE WEST RESPONSE

  conclude there are no unacceptable risks that will develop due 

  to an expanded eligible ben~ficiary population. , While the 

  population is poised to increase, it is anticipated to be a 

  predominantly healthy popu'lation of 'YOWlg Marines and their 

  family members, and the current health care delivery syst~ , 

',coupled with the ' staffing increases projected by our
  comprehensive ~lysis, will continue to be adequate to meet' the
  various needs.
, w. disagree specificaliy withthe following pas_gea of the
dZ-aft report and requeat that the following c~t. be r-=wed
.frca the ~t report,

   • 	 page 4, "'Consequently, the NMW plan did not sufficiently
        mitigate the risks associated with ' not providin~ additional
         specialty care in such a remote location and ensure the
         beneficiaries in Guam will have adequate access to health
       , care.­
   • 	 Page 9, ·the resulting p~an diq not adequately identify and
         assess the risks associated wi th potential shortages of
         care in' the specialties not provided at USNH Guam. NMW
                     Click to add JPEG file
         Personnel , should calculate staffing requirements for all
         specialties that may be neec;led in Gu.aJ1l.'
   • Page S, ' ~However , NMW personnel did not determine staffing
      ' requirements for spectalties that OSNH Guam did not
        provide . '

The current status of the heal thcare provided to our
'beneficiari~s inGuam is not in question. The DoD IG draft
report assumes in the passages identified above that given the
non-inclusion of nine identified specialties in the staffing
plan for a future beneficiary population in Guam that 1) those
specialties were not considered or planned for, and 2} the risks
associated with non-inclusipn were not considered. This is an
invalid assumption.

During the planning process, NMW personnel considered available
resources across all medical specialties; the population at the
various locations; 'the bealthcare demand for various medical
specialties by location; the economies of consolidation of
v:arioUs medic;:al specialty services; and the requirement to
ensure an appropriate ·case mix· for ' Our medical specialists to
maintain ' their skill sets. The latter issue is a significant
one - clinicians who do not maintain a robust practice can
result in a signi~icant patient safety risk. NMW staff
                                   3




                                            21
     Subj:   OODIG DRAFT REPORT ON GuAM:       NAVY MEDICINE WEST RESPONSE

     consistently factors -skill erosion· in all staffing decisions
     and did so in this analysis. We view "economies of
     consolidation· as having an appropriate patient volume . and an
     appropriate case-mix (variety of case~) to ~intain ·the breadth
     and depth of our specialists ' skills. Based on historical and
     projected workload, NMW determined which medical sp.e~ialti~ to
     plan care for ~n Guam.

     ~n t~ of r i sks and mitigation, the continuing mitigation
     strategy" is to 1) rely on the aeromedical· evacuation system that
     current ly is in ' place and 2) continue the successful use of the
     circuit rider program. To address the impact that urgent and
     priority AE will have on the AE system, an analysis of the
     historical and projected AS use for five "at-risk· specialties
     is presented in the chart below. The FY- 2010 Guam beneficiary
     population of 22 , 000 and the average AE urgent and priority AE
     per year for FY-2009 and FY- 2010 are shown. With a projected
     addit~on of 17,000 new ~efi c iaries, the projected AE burden
     for each o~ the specialties is estimated.

                         ClickAverage
                               to add JPEG file                a.t~ted ADDUal AB
                      2010                      Projected       Baaed em proje cted
     _cia1ty          sa••
                   Popu.laticm
                                 l1xvent
                                 U   for
                                                   ......
                                               Popu.1ati.o:n
                                                               P'OPU:1atioa. J:ncrea.a8
                                                                   of 17,000
                                 Py   09-10
                                                                  Beneficiaries
Neurology            22,000            2         39,000                   3
Neurosurgery         22,000           2          39,000                   3
mel]                 22,000           15         39,000                  29
Cardiology/CT
Surgery              22,000           12         39,000                  21
Gr                   22,000            2         39 , 000                 3


     ·As per above data, ·the "increased burden- on the AE system is
      not significant. Further, .given that the estimated annual AB
      based. on projected population increase of 17,000 beneficiaries
     demonstrates the "acute need- for each · specialty, this further
     solidifies Navy Medicine West conclusion that non-inclusion of
     these particular specialties will not result in an unacceptable
     risk to the beneficiaries of Guam.




                                           4




                                                   22
Subj :   roDIG DRAFT REPORT ON GUAM:        NAvr MEDICINE WEST RESPONSE

We diaagree apeci:fically with the following pa....ge. 'of' the
draft report and requ.••t that thea. cc:.ment. be Z'e.,;ed from. the
draft report a

   • 	 Page 6, . ·Circuit rider programs provide limited access to
       specialty care because providers are only available       .
       periodically and are typically not available for providing
       urgent 'or emergent care.·

Military Treatment Facilities (includiI1g 05m:l Guam) are subject
to 	exterqal review   by   The Joint Commission (TcrC) which verifies
compliance with patient safety and quality standards. USNH Guam
is 	a full TJC Accredited organization, la'B t surveyed in June
2010 . USNH Guam was granted full accreditation for a period of
three years.

Concurrent with the Joint Commission Accreditation survey         in
June 2010, the Medical     ~pector       General (MEDINSGEN) conducted a
thorough inspection of USNH Guam.         The MEDINSGBN assesses the
services and programs administered by USNH Guam. During this
inspection USNH Guam was found ·Satisfactory· , the highest
                      Click to add JPEG file
category that is granted by MEDINSGEN.

It ·should be noted that a similar circuit rider program is
currently successfully employed in the EurQpean AOR. All MTFs
in the European AOR have similarly successfully achieved full
TJC accreditation and have received ·successful- on their
respective MEDIG inspections.

Together, these two extensive reviews provide an assessment of
the scope and qual.i ty of care provided at USNH Guam. They look
for quality of care concerns, and areas where gaps in care may
exist. Neither organization identified the Circuit Rider
program or the ·periodic· nature of their services to be a
source of risk or coneern for the beneficiaries of USNH Guam.
Based on the limited increae:ed burden on the AE system as
identified in the chart above. and the findings of The 'Joint
Commission and MEDINSGEN, Navy Medicine West believes that the
services provided by USNH Guam today, and in the future if
17,000 additional beneficiaries are moved to Guam , are and will ,
continue to 'be appropriate. for our beneficiary population.
Again, a very important issue is prevention of provider skill
erosion for these specialties as a consequence of limited case
load based on our proj ections. Provider skill erosion is a
patient safety issue.

                                     5




                                                23
Subj ,   OODIG DRAFT REPORT ON GUAM,           NAVY MEDICINE WEST RESPONSE


2.   Should 'additiO.nail.inif.oiimaiiltii'.'0in.be~~ie
contact are .•
                                                     n ie~died        itii• o
                                                            i,.myiipoiin
                                                                • •
                                                                            iifil•••




                         Click to add JPEG file




                                         6




                                                     24
SUbj:   DODIG DRAFT REPORT ON GUAM:   NAVY MEDICINE WEST RESPONSF;




OTer9iew o f current oua. B.aal.th ~ Status for "P e r p t"ive .
The heal th care needs " of our beneficiary poPlllation in Guam are
being met via a robust combination of organic medical assets
assigned to USNH Guam; ·Circuit Riders· which provide specialty
care during recurring visits to Guam; and current aeromedical
evacuation system. We cite USNH Guam's successful Joint
commission Survey and subsequent three year accreditation
awarded in June 2010. In addition", recent audits by the DoD IG
have no~ revealed any concerns with the quality of life or
healthcare for our beneficiaries in Guam.

The original Defense Posture Realignment Initiative (DPRI)
outlined the potential" movement of up to 17,000 Marines and
their Family Members to Guam . Although recent dialogue with the
Marine" Corps suggests a '- much smaller number likely nearing 4700,
as recent as 6 February 2012, the OODIG directed us to plan for
the initial 17,000 which we have"
                     Click to add JPEG file
Knowing our patiepta, we also mow the type of health care they
consume and the frequency with which they consume it" Given
that the care of our current beneficiaries in Guam is not in
question, the focus of ~y adjustments to the care provided is
therefore based on our assessment of the up to 17, 000 addi tional
beneficiaries. To "d escribe these beneficiaries we would account
for them as young, healthy, screened (via the overseas screening
program), and priinarily consumers of primary care and OB
services. Any changes .made ~o the types of care provided in
Guam "would most appropriately be made in relation to these
descriptors and the types of care these additional beneficiaries
will consume.

There were numerous inputs considered"as part of the decision
making process "regarding the types of medical care to provide in
Guam. We will not attempt to address every factor that was
considered in our decision making process, but rather focus on a
few of the factors we consider most significant. It is
important to note that each of our decisions regarding Guam was
made as part of a" larger picture which involved Okinawa and our
assets and ob~igations there.



                                                          Enclosure (1)




                                           25
Subj:    DODIG DRAFT REPORT ON GUAM:   NAVY MEDICINE ~ST RESPONSE

GeoQ'raI)hy . Geography plays a significant role in planning care
for our beneficiaries . Guam is located approximately 3,700
miles from Hawaii and Okinawa is approximatel y 4',500 miles
f rom Hawaii. 'Given' its location within the Pacific Region, the
Naval ~ospital at Okinawa has been considered the Referral
Center in the Pacific since the closiog of Clark Air Force Base
(and its associated hospital ) in 1991. Okinawa was chosen due
to many factors, including its geographic accessibility, and the
co- l ocation of other mi'l itary services (i,. e., Air Force), and
consolidated location of personnel (i. e ., ' Kadena Air Base). A
n~w stat'e of the art' Naval .Hospital is under construction in
Okinawa, with an occupancy, date of Spring . 2013.

COOrdinatiOD. The Na~l Hospitals at Guam, Okinawa, and
Yokosuka are part of a formal "WestPac Alliance-, The
Commanders of these three facilities have worked together to
plan the care for beneficiaries in, and share resources of this
region . Their input was given tremendous consideration in this
p l anning process,

'the   Proc:e... OVer the past several years, key personnel at NHW
                     Click to add JPEG file
  have held a series of informational, decisional, and planning
  discussions to address the healthcare needs of our beneficiaries
  in the pacifi c Region . The Defense 'Policy Review Initiative
  (.DPRI) , and the potential movement of USMC personnel within the
  region, pas always been at the 'fqrefront of our planning.
  Throughout, first and foremost, the health and well being of our
  beneficiaries in Guam remains our 11 prioritY. During these
  sessiOns , NNW ' personnel considered available resources across
  all m~caI specialties, the population at the various
  locations, the healthcare demand for various medical ' specialties
  by location, the economies of consolidation of various medical
  special ty services, and the requirement to maintain an
' appropriate ·case mix- for our medical specialists to maintain
  their skill se'ts and prevent skill erosion. We view -economies
  of consolidation· as having an appropriate patient volume and an
  appropriate case-mix (variety of cases) to maintain the breadth
  and depth of our specialists ' skills. Based on historical and
  projected workload , NMW , determined which medical specialties to
  pl~ care f or in Guam.

oomo Finding. : ~t. concerning . Navy 'Medicine West 

disagrees with the finding -A Better Plan Needed for Providing 

Specialty Care to Guam, Beneficiaries.- This finding outlined 

the following specific area of concern: 


                                  2




                                           26
Subj :   DODIG DRAFT REPORT ON GUAM:      NAVY MEDICINE WEST RESPONSE

   • 	 . " , tUd DOt adequately pl4D for nine · 1IPBC1al.t:Le. o~ care ir:a
         QuaIl that are 4ya.:Uable 1.D OkJJ:Ltn. We fee.l that a
         misunderstanding exists regarding this concern. Failure to
         include a service (i.e. Cardiology) . as part of the planned
         services at Naval Hospital Guam does not indicate a failure
         to consider or plan for that service. In fact, as
       · discussed above, a · careful analysis was conducted by NMW
         Staff regarding the specialties that would/would not be
         included as part of planned care in Guam. Each of the
         specialties in question was ·evaluated for 'inclusion, and a
         deliberate decision made to include or not include based on
         several facto~s. While we believe these have been addressed
         in the past, we have included below a discussion of each
         specialty addressed in the draft ~eport.

·As indicated above, each of the identified Medical Specialties
 from this Draft Report are discussed below in greater detail.
 The identified Medical Specialties are : Neurology, Neurosurgery,
 Cardiol ogy·, Cardio Thoracic Surgery, NlCU, Podiatry,
 Gastroenterology; Pediatric psychiatry, and Pedi atric
 Psychology .
                      Click to add JPEG file
     - Neurology. THe average workload for enrollees of NH Guam
in Neurology for the past three years would require
approximately 0.3 full time equivalents (PTE) Neurologist .
Between FY 2009 and 2010, there were a total of three orgent AE
for Neurology needs. Assuming that the workload in Guam doubled
due to increasing population, we would r .e asonably expect a 0.6
PTE Neurologist need .  This would result in a less than 'optimal
use of this limited resource, and likely degradation of .
Specialist skill. Mitigation Plan- Continued use of ' the AE
System and/ or circuit rider program.

       - Neurosurgery. The requirement for Neurosurgery in Guam
 is ·even less than for Netirologyi l ess than 0 . 1 PTE. In essence,
 thls indicates that a Neurosurgeon would be able to ·stay busy·
.1/10th of the time, as well as gain 1/10th of the needed ~case ,
mix'" to maintain a healthy and skillful practice . Additionally.
 there is value added by co-location of Neurology and
Neurosurgery services at one referral ·Medical Center. There
 were a total of tbree Neurosurgery urgent AE from Guam in FYa
 2009 and 2010. Mitigation Plan-Continued u se of the AE System
 andlor circlli t rider program.           .



                                     3




                                               27
Subj,:   OODIG DRAFT REPORT ON GUAM: '   NAVY MEDICINE WEST RESPONSE

        - Neonatal Intensive Care unit · (NICU). USNH Guam had an
 average of 15 Urgent AE per year to USNH Okinawa for FYs ;;1:009
 and 2010. , We' estimate that a popul~tion increase of 17;000
 beneficiaries would result in 29 Urgent ABa , per year to USNH
 Olq.nawa. Additionally, oUr discussions with experts in this
 field indicate that a NICU/ Neonatologist would require at least
 one admission per day that would require services such as
 1ntubation and ventilation (higher levels of care than routine
 occur at NH Guam), to maintain proficiency . This rate Of NICO
 ad:a:Lissions ~s less than 10%: of the recommended NlCU admission
 rate to adequately utilize NICU services and serve ~o maintain
 provider skill. ,Mitigation Plan-Continued use of the AB System .
 Additionally, placement of two NICO trained RNa at NH Guam,
,which 'will give added expertise in the rare occasions ,that
 stabilization. of infants is required while awaiting transport.

        - Cardiology/Cardio Thoracic Surgery. Cardiology and CT
  Surgery are not specialties that are offered at NH Okinawa.
 'T his was reported in error in the draft discussion. Regardless,
  workload does not support the need of Cardiology or CT Surgery
  services in Guam. The risk of not includi~' Cardiology services
                      Click to add JPEG file
  at NH ' Guam would include a potential increase in the need for AE
  services . At the request of Commander, Navy Medicine west, a
  thorough assessment of the ·Cardiology Needs- of NH Guam was
  conducted by the' Chief of Cardiology, Naval Medical Center San
  Diego, in 2008 . in her report, she opined that use of the AB
  system is meeting current patient care needs, and will be more
  than adequate to meet future peeds bas~d on 17,000 additional
  beneficiaries. Insertion of a CT SUrgery team would result in
  skill erosion. Mitigation Plan-Continued re~iance on the AE
,system.

     - Podiatry. NH Guam currently has one podiatry billet.
The inventory of Podiatrists bas been diminished, and therefore
this billet has been unfilled . podiatry ' services are currently
furnished via circuit rider program. Mitigation Plan":Fill
current billet and/or continued use of circuit rider program.

     - Gastroenterology. GI service in Guam is currently being
met by a ·circuit rider- program. workload for GI in Guam     .
requires 0.1 FTE. Ultimately, even with an increase in
beneficiary population, offering this service is Guam i~ not an
appropriate decision due to skill erosion . Mitigation Plan­
Continue with Circuit Rider · provider p~ogram.


                                   4




                                             28
Subj:   OODIG DRAFT REPORT ON GUAM :   NAVY MEDICINE WEST RESPONSE

     - Pediatric Psychiatry and PSYCh010gy. CUrrent1y in p1ace
are a contract fo~ a fu11 time Pediatric psy~hologist, with a
Circuit Rider Pedia·tric psychiatrist every 6 week.s. No
continued risks. Mitigation p1an-not required.




                    Click to add JPEG file




                                  5




                                           29
